HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Maryland and the District of
Columbia for July 1, 2005 Through June 30, 2006 - Maryland Department of Health
and Mental Hygiene," (A-03-07-00215)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid
Payments for Services Provided to Beneficiaries With Concurrent Eligibility in
Maryland and the District of Columbia for July 1, 2005 Through June 30, 2006 -
Maryland Department of Health and Mental Hygiene," (A-03-07-00215)
April 30, 2008
Complete
Text of Report is available in PDF format (449 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period July 1, 2005, through June 30, 2006, we
estimated that Maryland paid $2 million ($1 million Federal share) for Medicaid
services provided to beneficiaries who should not have been eligible owing to
their Medicaid eligibility/residence in the District of Columbia and $347,000
($173,000 Federal share) for Medicaid services provided to beneficiaries whose
residence could not be determined.  Both Maryland and the District of Columbia
require that Medicaid beneficiaries be residents.
We recommended that Maryland work with the District of Columbia to share
information for use in determining accurate beneficiary eligibility status and
reducing the amount of payments made on behalf of beneficiaries residing in the
District of Columbia.  We also recommended that the State determine the place of
residence associated with beneficiaries whose residency could not be established
and verify addresses of all beneficiaries.  The State generally concurred with
our recommendations but not with verifying the addresses of beneficiaries on
Supplemental Security Income or the amount of estimated savings, and it cited
Federal regulations that required it to pay for some beneficiaries who were not
residents of the State.  Because the State did not cite specific cases that it
disagreed with, we continue to support our recommendations and the estimated
savings.